August 29, 2007

KATHLEEN AINSWORTH
VICE PRESIDENT, DELIVERY AND RETAIL

THOMAS G. DAY
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

SUBJECT: Audit Report – Address Management System Information – National Capping
         (Report Number DR-AR-07-012)

This report summarizes a series of eight reports of our self-initiated audit of Address
Management System (AMS) information in the Capital Metro, Eastern, Great Lakes,
Northeast, Pacific, Southeast, Southwest, and Western Areas (Project Number
07XG025DR000). Our objective was to assess the U.S. Postal Service’s management of
delivery AMS quality review results to ensure address information is correct and complete to
effectively process and deliver the mail in the eight areas.

District officials in the eight areas effectively managed delivery AMS quality review results for
approximately 10 percent (8,518 of 88,418) of their routes according to Postal Service
guidelines. District AMS officials did not conduct additional street reviews for the remaining
routes due to limited staff and a priority on timely mail delivery. However, opportunities exist
for area officials to implement best management practices from the New York Metro Area’s
New York District to improve the quality of AMS data to process and deliver the mail. If area
officials implemented a program similar to the New York District’s program in their districts,
they could reduce errors by 31.84 percent, saving the Postal Service $26,902,945 over the
next 10 years. We reported monetary impact in the individual area reports. (See Appendix
A.)

In our eight area reports, we recommended the vice presidents implement an AMS quality
review program similar to the New York District’s. Management agreed in principle with our
area findings and recommendations and while they did not always agree with our monetary
impact, they all agreed to take actions that should reduce AMS errors. We considered
management’s actions responsive to the issues raised in the reports and, therefore, we did
not pursue the unresolved monetary impact issues through the formal resolution process.

Based on discussions during our audit, the Vice President, Delivery and Retail and the
Senior Vice President, Intelligent Mail and Address Quality, issued a joint memorandum to
area vice presidents implementing a National Delivery-AMS Street Review process for fiscal
year 2008. This process should address the issues raised in our audit. Therefore, we are
making no additional recommendations in this report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If you
have any questions or need additional information, please contact Rita Oliver, Director,
Delivery, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    James Kiser
    Alice VanGorder
    Steve Dearing
    Katherine S. Banks
Address Management System Information                                                        DR-AR-07-012
 National Capping


                                                 INTRODUCTION
    Background              Address management is the foundation for how the U.S. Postal
                            Service moves mail. The Postal Service strives to obtain the
                            highest quality address information possible for internal use and
                            for its customers. In March 1993, the Postal Service
                            implemented Delivery Point Sequence (DPS).1 DPS is the
                            process of putting barcode mail into the carrier’s line of travel
                            (LOT) to eliminate manual mail sorting, improve efficiency, and
                            reduce costs.

                            In 1994, the Postal Service established the Address Management
                            System (AMS) to capture, correct, and complete address
                            information to enhance the efficiency of mail processing and
                            delivery through automation. Sort programs used to process mail
                            in DPS capture address information in the AMS. A developer
                            creates sort programs as part of the Sort Program System, which
                            is part of the National Directory Support System (NDSS). DPS
                            sort programs are transferred to either a Mail Processing Barcode
                            Sorter or a Delivery Barcode Sorter2 for sorting mail into DPS.

                            Mail that automated equipment cannot process requires manual
                            processing, which is less efficient and is costly to the Postal
                            Service. As illustrated in Table 1, during fiscal year (FY) 2005,
                            the Postal Service processed 94 billion pieces of letter mail,
                            72 billion pieces (76.8 percent) of which employees processed on
                            automated equipment and the remaining 22 billion pieces (23.2
                            percent) manually. During FY 2006, the Postal Service
                            processed 93.3 billion pieces of letter mail — employees
                            processed 74.4 billion pieces (79.7 percent) on automated
                            equipment and the remaining 18.9 billion pieces (20.3 percent)
                            manually.

                                          Table 1. Postal Service Letter Mail Processed in Pieces
                                                            FYs 2005 and 2006
                                                                                                          Cased
                              Fiscal    DPS Letters     Cased Letters     Total Letters      DPS          Letter
                               Year      (Pieces)         (Pieces)          (Pieces)      Percentage    Percentage

                              2006     74,404,492,341   18,929,268,976   93,333,761,317      79.7          20.3
                              2005     72,270,819,511   21,846,660,416   94,117,479,927      76.8          23.2
                                Source: Postal Service Web-enabled Enterprise Information System (WebEIS)




1
  DPS resulted from a 1992 agreement with the National Association of Letter Carriers that changed the automation
environment.
2
  Carrier Sequence Barcode Sorters, a type of mail processing equipment smaller Postal Service facilities use, also sort
DPS mail.


                                                           1
Address Management System Information                                                       DR-AR-07-012
 National Capping



                            In 2003, the Postal Service outlined a strategy to enhance address
                            quality in its Intelligent Mail Corporate Plan. The strategy includes
                            improving the address database, filling change of address orders,
                            and using Address Change Service. To improve the address
                            database, the Postal Service established a delivery AMS quality
                            review program to evaluate the quality of AMS data and meet the
                            goal of 100 percent accurate AMS data nationwide.

                            As part of the quality review program, National Customer Support
                            Center (NCSC) teams annually conduct street reviews of 40 routes
                            at each Postal Service district nationwide. The NCSC team
                            selects 40 city or rural delivery routes, based on Postal Service
                            guidelines.3 For every route the team selects within a ZIP Code,
                            they also select two alternate routes.

                            The street reviews:

                            •   Identify all possible delivery addresses included in Address
                                Information System products and the NDSS files.

                            •   Validate the number of possible delivery addresses assigned to
                                each carrier route.

                            •   Validate the correct LOT or delivery sequence for each carrier
                                route.

                            •   Assign ZIP+4® Codes to maximize compatibility with
                                automated equipment.

                            •   Verify the standardization of addresses according to
                                Publication 28, Postal Addressing Standards, dated July 2006.

                            •   Review AMS database products to ensure they meet the needs
                                and expectations of Postal Service customers.

                            The NCSC team is required to review districts scoring below 98
                            percent on the street review every 6 months, review districts that
                            score from 98 to 100 percent annually, and review districts scoring
                            99 percent or higher on an abbreviated basis.

                            In addition to the NCSC street reviews, AMS district officials
                            conduct street reviews of routes to maintain the accuracy of AMS

3
 Delivery/AMS Quality Street Review Guidelines, FY 2005 Revision 1, states that NCSC will review 40 routes per districts
annually.


                                                          2
Address Management System Information                                                        DR-AR-07-012
 National Capping


                            data. Carriers also identify AMS data changes based on their
                            street deliveries, note address changes in their AMS edit books,
                            and submit the information to the AMS district officials using their
                            Web Electronic Edit Sheets for review and correction in the AMS
                            database.

                            As the Postal Service continues to process mail on automated
                            equipment, the quality of address information takes on new
                            importance. Use of correct and complete address information can
                            reduce costs to the Postal Service.

Objective, Scope,           Our objective was to assess the Postal Service’s management of
and Methodology             the delivery AMS quality review results to ensure address
                            information is correct and complete to effectively process and
                            deliver the mail in the Capital Metro, Eastern, Great Lakes,
                            Northeast, Pacific, Southeast, Southwest, and Western Areas. We
                            obtained data on FYs 2005 and 2006 reviews from the NCSC to
                            analyze routes reviewed, AMS data errors identified, and
                            performance scores. As illustrated in Table 2, we selected districts
                            in the eight areas for review based on their NCSC performance
                            scores.

                            We also reviewed performance scores for the eight areas’ districts
                            to select those receiving performance scores below 98 percent in
                            FYs 2005 and 2006 and evaluated their AMS data maintenance
                            process to determine whether they could improve their programs.
                            We also reviewed the areas’ FYs 2005 and 2006 DPS information
                            to compare their DPS volumes to the Postal Service’s goal.4 We
                            obtained and reviewed the results of prior AMS reviews for the
                            New York District, which showed street review performance scores
                            consistently above 99 percent. As a best management practice,
                            we evaluated the feasibility and applicability of using the New York
                            District’s AMS data maintenance program in other Postal Service
                            districts.




4
 We are planning to conduct a future review that will incorporate DPS percentages to identify opportunities to reduce costs
and improve customer service.


                                                           3
Address Management System Information                                                      DR-AR-07-012
 National Capping




                             Table 2. NCSC Review Results for the Eight Areas

                                           Number of       Percentage of                    Number of       Percentage of
                                          Districts that     Districts                     Districts that    Districts that
                         Number of         Achieved          Achieved       Number of       Achieved          Achieved
            Number        Reviews             98%              98%           Reviews           98%               98%
  Postal       of       Conducted for       Score in         Score in      Conducted for     Score in          Score in
  Areas     Districts    the District       FY 2005          FY 2005        the District     FY 2006           FY 2006

Capital
Metro               7               7                  7          100%                 7               6              86%
Eastern            10              10                  7           70%                 9               7              78%
Great
Lakes               9               9                  2           22%                 8               3              33%
Northeast           8               7                  2           25%                 5               1              13%
Pacific             8               8                  5           63%                 8               4              50%
Southeast           9               9                  9          100%                 9               6              67%
Southwest           8               8                  0             0%                7               0               0%
Western            14              14                  3           21%                14               8              57%
                                        Source: Postal Service NCSC officials

                        We conducted a series of eight audits from April 2006 through August
                        2007 in accordance with generally accepted government auditing
                        standards and included such tests of internal controls as we
                        considered necessary under the circumstances. Those standards
                        require that we plan and perform the audit to obtain sufficient,
                        appropriate evidence to provide a reasonable basis for our findings
                        and conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives. We discussed our
                        observations and conclusions with management officials on June 26
                        and June 29, 2007, and included their comments where appropriate.
                        We relied on computer-processed information from AMS. We did not
                        directly audit the system, but performed a limited data integrity review
                        to support our data reliance.

Prior Audit             The OIG issued nine reports directly related to our objectives. We
Coverage                have included a complete list of the reports in Appendix B.




                                                           4
Address Management System Information                                                        DR-AR-07-012
 National Capping


                                                AUDIT RESULTS
 Address                         District officials in the eight areas reviewed effectively managed
 Management                      delivery AMS quality review results for approximately 10
 System Information              percent (8,518 of 88,418) of their routes. District AMS officials
                                 did not conduct additional street reviews for the remaining
                                 79,900 routes due to limited staff and a priority on ensuring
                                 timely mail delivery. However, opportunities exist for area
                                 officials to implement best management practices similar to
                                 those the New York Metro Area’s New York District use to
                                 improve the quality of AMS data to process and deliver the mail.

                                 In FYs 2005 and 2006, there were 88,418 total routes in the
                                 selected district locations, as illustrated in Chart 1. The NCSC
                                 team reviewed approximately 2 percent (1,340) of these routes
                                 according to Postal Service guidelines. The team identified
                                 18,741 AMS errors. During this same period, the areas’ district
                                 officials reviewed approximately 8 percent (7,178) of the routes.
                                 The remaining 90 percent (79,900) of the routes were not
                                 reviewed.

                                                Chart 1. Number and Percentage of Route Reviews
                                                          Conducted in the Eight Areas

                                                 Routes
                                                Reviewed
                                                by NCSC                               Routes Reviewed
                                                                                       by AMS District
                                                   1,340,                    7,178,
                                                                              8%
                                                                                          Officials
                                                    2%




                                                                                  79,900,
                                                                                             Routes Not
                                                                                   90%
                                                                                             Reviewed


                                                  Source: Postal Service NCSC and Areas Officials

                                 As illustrated in Table 3, at the time of our review, NCSC and
                                 local AMS officials performed quality street reviews for 8,518
                                 routes. Based on FYs 2005 and 2006 NCSC team reviews and
                                 the related error rate per route, approximately 1,080,4295 AMS


5
  We based our projection of the number of errors that may exist in routes not reviewed on the formula NCSC uses in its
street reviews. The error projection for each area’s district is determined by using the number of errors identified in NCSC
street reviews, determining an error rate per route, and applying the rate to the number of routes not reviewed. The
1,080,449 projected errors were calculated by adding the following: Capital Metro - 30,345; Eastern - 50,664; Great Lakes -
129,668; Northeast - 179,059; Pacific - 101,022; Southeast - 33,056; Southwest - 322,418; and Western - 234,197.


                                                            5
Address Management System Information                                                      DR-AR-07-012
 National Capping



                          data errors may exist on 79,900 routes in districts in the eight
                          areas where street reviews were not conducted.

                                             Table 3. Route Reviews Conducted in the Eight Areas


                                                                              Routes
                                                                 Routes      Reviewed         Total
                                                      Total     Reviewed     by District     Routes      Routes Not
                                      Area           Routes     by NCSC       Officials     Reviewed     Reviewed

                            Capital Metro               2,043          20             10            30        2,013
                            Eastern                     4,382         160           100            260        4,122
                            Great Lakes                 9,718          80           868            948        8,770
                            Northeast                  12,557         260           289            549       12,008
                            Pacific                    15,378         140           183           323        15,055
                            Southeast                   7,217          40         4,229           4269        2,948
                            Southwest                  18,019         280           542           822        17,197
                            Western                    19,104         360           957         1,317        17,787

                            Totals                     88,418        1,340        7,178         8,518        79,900
                                                 Source: Postal Service NCSC and Area officials
                          Currently, local AMS officials administer the eight areas’ district
                          programs. However, these officials did not use available district
                          resources (such as delivery supervisors or appropriate
                          designees) to conduct additional street reviews for the
                          remaining 79,900 routes. District officials stated staffing
                          constraints hindered the completion of additional reviews and
                          their primary focus was ensuring timely delivery of the mail.

                          In addition, the AMS review module in the associate supervisors
                          training course for the eight areas’ district delivery supervisors
                          does not include specific information on AMS quality street
                          reviews. The module only provides information on how to
                          update the AMS edit book and enter the changes into the
                          automated system for submission to district officials.

                          The Postal Service established the AMS to capture, correct,
                          and complete address information to enhance the efficiency of
                          mail processing and delivery through automation. Therefore,
                          AMS address data information captured in sort programs used
                          to process mail in DPS must be accurate. The Postal Service
                          created DPS to eliminate manual mail sorting, improve
                          efficiency, and reduce costs.

                          As illustrated in Table 4, from FY 2005 to FY 2006, all areas
                          improved their DPS mail volume percentages. The New York
                          Metro Area DPS percentages were below the national average
                          for DPS mail due, in part, to challenges associated with


                                                        6
Address Management System Information                                                      DR-AR-07-012
 National Capping


                                secondary descriptors in New York District high-rise buildings
                                and language issues in the Caribbean District. According to the
                                Transformation Plan,6 the Postal Service’s goal is to sort
                                95 percent of letter mail volume by DPS by 2010. A decrease
                                in AMS data errors would help area officials achieve the DPS
                                goal and reduce operating costs.
                                                      Table 4. The Areas’ DPS Percentages
                                             Areas                   FY 2005                  FY 2006

                                      Capital Metro                    72.41                    75.66
                                      Eastern                          74.53                    78.31
                                      Great Lakes                      75.67                    78.08
                                      Northeast                        81.48                    84.31
                                      Pacific                          75.24                    79.62
                                      Southeast                        79.10                    81.34
                                      Southwest                        79.58                    80.59
                                      Western                          82.11                    84.82

                                      New York Metro                   71.00                    74.20

                                      National Average                 76.79                    79.72
                                                          Source: Postal Service WebEIS

                                If the eight areas’ districts implemented programs similar to the
                                New York District’s, they could reduce AMS errors by 31.84
                                percent,7 saving the Postal Service $26,902,945 over the next
                                10 years. (See Appendix A.)

    New York District           The New York District has 2,202 city routes. In FY 2005, the
                                NCSC team reviewed 2 percent (40) of these routes according
                                to Postal Service guidelines. The team identified 195 AMS
                                errors (approximately five errors per route) and the district
                                received a 99.21 AMS performance score from the street
                                review. The NCSC team did not review the remaining
                                98 percent of the routes (2,162).

                                In 1998, the New York District began an extensive AMS quality
                                review program, administered by local AMS officials, which
                                requires delivery units to complete AMS street reviews using
                                existing staff. As part of the program, New York District officials
                                added an AMS review module to the training course for New

6
 U.S. Postal Service Strategic Transformation Plan 2006 – 2010, dated September 2005.
7
 The error reduction rate factor for the New York Metro Area is 71.05 percent and the error reduction rate factor for the
control group is 29.74 percent. The factor for the New York Metro Area is divided by the control group factor (1.7105 ÷
1.2974) to arrive at 31.84 percent. The Capital Metro, Eastern, Great Lakes, Northeast, Pacific, Southeast, Southwest, and
Western Areas are expected to reduce their error rates by 31.84 percent by implementing a program similar to the New York
Area’s.


                                                          7
Address Management System Information                                     DR-AR-07-012
 National Capping


                          York District delivery supervisors. In addition, the New York
                          AMS office established AMS review schedules for all delivery
                          units’ existing staff and an accountability system that monitors
                          the completion of AMS street reviews. As a result, the New
                          York District used existing staff to significantly increase its
                          review coverage.

                          In FY 2005, New York District officials set a goal of reviewing all
                          routes annually, including routes the district and the NCSC
                          reviewed. The existing staff reviewed routes and implemented
                          corrective actions for the AMS errors identified. AMS reviews
                          that delivery unit staff conduct are implemented by all districts in
                          the New York Metro Area and the program has been very
                          successful. Since its inception, all districts have achieved
                          significant increases in AMS performance scores. The
                          historical average performance score for the New York District
                          is 99.03 percent.

 Address                  During our audit, the Deputy Postmaster General and Chief
 Management               Operating Officer issued a memorandum on AMS national
 System Street            street reviews dated August 23, 2006. The memorandum
 Review Program           stated a new Address Quality Improvement Process would be
 Changes                  implemented to help the districts identify and correct addressing
                          deficiencies. The new process would include the Address
                          Quality Reporting Tool, which enables staff to target problem
                          areas on a continual basis. The memorandum further stated for
                          FY 2007, trained field personnel would conduct all delivery AMS
                          street reviews. Area and headquarters address management
                          officials would continue to coordinate the FY 2007 delivery AMS
                          street review schedule and the NCSC would continue to provide
                          street review materials.

 Management’s             The eight audit reports we issued to area vice presidents
 Actions                  contained recommendations with potential savings
                          totaling $26.9 million over the next 10 years. In their formal
                          written comments, area vice presidents agreed in principle with
                          our findings and recommendations and have initiated a variety
                          of actions in response to the issues identified in our reports.
                          While the area vice presidents did not always agree with our
                          monetary impact, they all agreed to take actions that should
                          reduce AMS errors. We considered management’s actions
                          responsive to the issues raised in the reports and, therefore, we
                          did not pursue the unresolved monetary impact issues through
                          the formal resolution process.




                                              8
Address Management System Information                                 DR-AR-07-012
 National Capping



                          In addition, based on discussions during our audit, the Vice
                          President, Delivery and Retail and the Senior Vice President,
                          Intelligent Mail and Address Quality, issued a joint
                          memorandum to area vice presidents implementing a National
                          Delivery-AMS Street Review process. This process will begin
                          on October 1, 2007, and should address the issues raised
                          during our audit. Therefore, we are making no additional
                          recommendations in this report. (See Appendix C.)




                                             9
Address Management System Information                                         DR-AR-07-012
 National Capping


                                         APPENDIX A

                 CALCULATION OF FUNDS PUT TO BETTER USE

The OIG identified $26,902,945 in funds put to better use over the next 10 years for the eight
areas. (Note: The monetary impact was reported in each individual area report. We are
summarizing the monetary impact in this report as information only.)

                                 Area                               Funds Put to
                                                      Fiscal Year    Better Use

                      Capital Metro                      2006           $455,197
                      Eastern                            2005            779,013
                      Great Lakes                     2005 & 2006      2,678,506
                      Northeast                       2005 & 2006      4,590,875
                      Pacific                         2005 & 2006      7,881,288
                      Southeast                          2006            862,134
                      Southwest                          2005          5,201,116
                      Western                            2005          4,454,816

                      Total for 10-Year Period                       $26,902,945

We used the following assumptions to calculate the $26,902,945.

1. We used the New York Metro Area as our standard for predicting possible cost savings
   for the Capital Metro, Eastern, Great Lakes, Northeast, Pacific, Southeast, Southwest,
   and Western Areas.

2. We assumed none of the Postal Service areas (other than the New York Metro Area) had
   implemented error reduction programs over the period of the AMS street reviews. These
   areas were our control group for estimating the net benefit of the New York Metro Area’s
   program.

3. Officials used the AMS national street review model to calculate cost savings; therefore,
   we assumed it realistically represented costs the Postal Service could save if it
   implemented a program to reduce the incidence of AMS errors. However, in our opinion,
   any costs saved would have to relate to a reduction in overtime or casual hours;
   therefore, labor rates used should be hourly overtime rates (which was not the case).

4. We used the AMS national street review model unchanged, with one exception: the
   model had FY 1999 labor rates imbedded. We updated these rates to reflect current
   rates by using an escalating percentage per year to arrive at a projection.

5. We assumed the cost of implementing an error reduction program would be negligible.




                                                 10
Address Management System Information                                   DR-AR-07-012
 National Capping


6. We assumed the average cost per error for the Capital Metro, Eastern, Great Lakes,
   Northeast, Pacific, Southeast, Southwest, and Western Areas would remain constant
   before and after program implementation.

7. If these areas began implementing programs immediately, FY 2007 would be devoted to
   set-up and training. We assumed cost savings would not begin until FY 2008. Our
   calculation of savings (funds put to better use) is a discounted cash flow analysis over a
   10-year period.

8. AMS errors can never be reduced to zero. We assumed the practical lower limit to be a 1
   percent error rate. However, this constraint did not affect the calculation for the eight
   areas in this instance.

9. We assumed error rates on rural routes would respond to an error reduction program in
   the same manner as city routes.

10. In our analysis of the New York Metro Area, we excluded the Caribbean District due to
    uncertainties regarding implementation of an error reduction program.

11. Not all categories of AMS errors have associated costs. We assumed that costly and
    non-costly errors would respond to an error reduction program in the same manner. That
    is, if the overall reduction rate for all AMS errors were 20 percent, the reduction rate for
    costly errors would also be 20 percent.




                                             11
Address Management System Information                                                    DR-AR-07-012
 National Capping


                                                 APPENDIX B

                                      PRIOR AUDIT COVERAGE

                                                                                                           Funds Put
                                                                                                            to Better
                                                                                                           Use Over
                                                                                                          the Next 10
          Audit Report Title                       Report Number                    Issue Date                Years

Address Management System                           DR-AR-07-009                   May 7, 2007                 $779,013
Information – Eastern Area

Address Management System                           DR-AR-07-008                   May 1, 2007               $4,454,816
Information – Western Area

Address Management System                           DR-AR-07-006                   May 1, 2007               $5,201,116
Information – Southwest Area8

Address Management System                           DR-AR-07-005                   May 1, 2007               $7,881,288
Information – Pacific Area

Address Management System                           DR-AR-07-004                   May 1, 2007                 $455,197
Information – Capital Metro Area

Address Management System                           DR-AR-07-002                 March 30, 2007                $862,134
Information – Southeast Area

Address Management System                           DR-AR-07-001                 March 15, 2007              $4,590,875
Information – Northeast Area

Address Management System                           DR-AR-06-008              September 30, 2006             $2,678,506
Information – Great Lakes Area

Address Management System –                         DR-AR-06-001                January 25, 2006               $988,945
                                    8
Southwest Area – Rio Grande District




8
 We did not include report results for the Southwest Area – Rio Grande District (Report Number DR-AR-06-001, dated
January 25, 2006) in this capping report.




                                                        12
Address Management System Information                DR-AR-07-012
 National Capping


                                        APPENDIX C

FISCAL YEAR 2008 ADDRESS MANAGEMENT SYSTEMS INFORMATION –
           ADDRESS QUALITY IMPROVEMENT PROCESS




                                           13
Address Management System Information        DR-AR-07-012
 National Capping




                                        14
Address Management System Information        DR-AR-07-012
 National Capping




                                        15
